Office of Inspector General



    Independent Auditor’s Report of
            FMC’s FY 2012
         Financial Statements

                A13-04




          November 2012



FEDERAL MARITIME COMMISSION
                                           TABLE OF CONTENTS


Inspector General Transmittal Letter


Independent Auditors’ Report .......................................................................................... 4

Balance Sheet ................................................................................................................. 8

Statement of Net Cost ..................................................................................................... 9

Statement of Changes in Net Position........................................................................... 10

Statement of Budgetary Recources............................................................................... 11

Statement of Custodial Activity ...................................................................................... 12

Notes to the Financial Statements ................................................................................ 13

APPENDIX A – OIG Comments to Draft Report ........................................................ 26 

                                        




                                                                 
 
                               FEDERAL MARITIME COMMISSION
                                   Office of Inspector General
                                  Washington, DC 20573-0001


                                         November 14, 2012 
                                                 
 
Office of Inspector General 
 
 
The Honorable Richard A. Lidinsky, Jr. 
Chairman 
Federal Maritime Commission             
 
 
I am pleased to provide you with the attached audit report required by the Accountability for 
Tax Dollars Act of 2002 (ATDA), which presents an unqualified opinion on the Federal Maritime 
Commission’s (FMC) FY 2012 financial statements. The audit results indicate that the FMC has 
established an internal control structure that facilitates the preparation of reliable financial and 
performance  information.  We  commend  the  FMC  for  the  noteworthy  accomplishment  of 
attaining an unqualified (clean) opinion for the ninth consecutive year. 
 
The Office of Inspector General (OIG) engaged the independent certified public accounting firm 
of Regis & Associates, P.C. (Regis) to perform the audit of the FMC’s financial statements for the 
fiscal  year  ended  September  30,  2012.  The  contract  required  that  the  audit  be  performed  in 
accordance  with  U.S.  Generally  Accepted  Government  Auditing  Standards  and  Office  of 
Management and Budget (OMB) audit guidance.  
 
In its audit of the Federal Maritime Commission, Regis found: 
 
   • the financial statements were fairly presented, in all material respects, in conformity with 
      U.S. generally accepted accounting principles; 
    
   • there  were  no  material  weaknesses  in  internal  control  over  financial  reporting  (including 
      safeguarding assets) and compliance with laws and regulations; and 
    
   • no reportable noncompliance with laws and regulations tested. 
 
To fulfill our responsibilities under ATDA and related legislation for ensuring the quality of the 
audit work performed, the OIG monitored Regis’s audit of FMC’s FY 2012 financial statements 
by: 
 
     • reviewing Regis’s approach and planning of the audit; 


                                                   2 
 
    •   evaluating the qualifications and independence of its auditors; 
    •   monitoring the progress of the audit at key points; 
    •   examining  its  work  papers  related  to  planning  the  audit,  assessing  the  FMC’s  internal 
        control, and substantive testing; 
    •   reviewing  Regis’s  audit  report  to  ensure  compliance  with  Government  Auditing 
        Standards and OMB Bulletin No. 07‐04, as amended; 
    •   coordinating the issuance of the audit report; and 
    •   performing other procedures we deemed necessary. 
 
Our review disclosed no instances where Regis did not comply, in all material respects, with U.S. 
Generally Accepted Government Auditing Standards. However, our review cannot be construed 
as an audit in accordance with U.S. Generally Accepted Government Auditing Standards. It was 
not intended to enable us to express, and we do not express, any opinion on the FMC’s financial 
statements,  conclusions  about  the  effectiveness  of  internal  control,  or  conclusions  on 
compliance  with  laws  and  regulations.  Regis  is  solely  responsible  for  the  attached  auditor’s 
report dated November 9, 2012, and the conclusions expressed in the report. 
 
We appreciate the cooperation and courtesies extended to both Regis and OIG staff during the 
audit. 
 
 Sincerely, 
 
  
 
 /Adam R. Trzeciak/ 
 Inspector General 
 
 
 
Attachment 
 
cc:     Commissioners 
        Managing Director                                    




                                                    3 
 
 

                                           

                                                     
          MANAGEMENT CONSULTANTS & 
          CERTIFIED PUBLIC ACCOUNTANTS 


 

                                                  INDEPENDENT AUDITORS' REPORT

The Honorable Richard A. Lidinsky, Jr.
Chairman
Federal Maritime Commission
Washington, DC

In accordance              with the Accountability of Tax Dollars Act of 2002, we have audited the
accompanying              balance sheets of the Federal Maritime Commission as of September 30, 2012
and 2011, and             the related statements of net cost, changes in net position, budgetary resources,
and custodial              activity for the years then ended. In our audit of the Federal Maritime
Commission’s              financial statements for fiscal years ended September 30, 2012 and 2011, we
found:

      •     the financial statements are presented fairly, in all material respects, in conformity with
            U.S. Generally Accepted Accounting Principles;

      •     no material weaknesses in internal control over financial reporting (including
            safeguarding assets), and compliance with laws and regulations; and

      •     no reportable noncompliance with the laws, and regulations we tested.

The following sections discuss in more detail (1) these conclusions, (2) our audit objectives,
scope and methodology, (3) agency comments, and our evaluation.

Opinion on Financial Statements

In our opinion, the financial statements, including the accompanying notes, present fairly, in all
material respects, the Federal Maritime Commission's assets, liabilities, and net position as of
September 30, 2012 and 2011; and net costs; changes in net position; budgetary resources; and
custodial activity for the years then ended, in conformity with accounting principles generally
accepted in the United States of America.



             1400 Eye Street, NW, Suite 425, Washington, DC 20005 Tel 202-296-7101 Fax 202-296-7284




                                                               4 
 
Consideration of Internal Control

In planning and performing our audit, we considered the Federal Maritime Commission's internal
control over financial reporting as a basis for designing our auditing procedures and to comply
with Office of Management and Budget (OMB) audit guidance for the purpose of expressing our
opinion on the financial statements, but not for the purpose of expressing an opinion on internal
control and compliance, or on management’s assertion on internal control included in the
Management’s Discussion and Analysis (MD&A) section of the Federal Maritime Commission's
Performance and Accountability Report for Fiscal Year 2012. Accordingly, we do not express an
opinion on internal control over financial reporting and compliance, or on management's
assertion on the effectiveness of the entity’s internal control over financial reporting. However,
for the controls we tested, we found no material weakness in internal control over financial
reporting (including safeguarding assets) and compliance.
 

A control deficiency exists when the design or operation of a control does not allow management
or employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination
of control deficiencies, that adversely affects the entity’s ability to initiate, authorize, record,
process or report financial data reliably in accordance with Generally Accepted Accounting
Principles, such that there is more than a remote likelihood that a misstatement of the entity’s
financial statements that is more than inconsequential will not be prevented or detected by the
entity’s internal control.

A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the financial statements
will not be prevented or detected by the entity’s internal control.

Our consideration of internal control over financial reporting and compliance was for the limited
purpose described in the first paragraph of this section, and would not necessarily disclose all
deficiencies in internal control over financial reporting that might be deficiencies, significant
deficiencies, or material weaknesses. We did not identify any deficiencies in internal control
over financial reporting that we consider to be material weaknesses or significant deficiencies, as
defined above.

Compliance with Laws and Regulations

Our tests of the Federal Maritime Commission’s compliance with selected provisions of laws
and regulations for fiscal year 2012 disclosed no instances of noncompliance that would be
reportable under U.S. Generally Accepted Government Auditing Standards, or OMB audit
guidance. However, the objective of our audit was not to provide an opinion on overall
compliance with laws and regulations. Accordingly we do not express such an opinion.




                                                 5 
 
Objectives, Scope, and Methodology

The Federal Maritime Commission’s management is responsible for (1) preparing the financial
statements in conformity with U.S. Generally Accepted Accounting Principles, (2) establishing,
maintaining, and assessing internal control to provide reasonable assurance that the broad control
objectives of the Federal Managers’ Financial Integrity Act are met; and (3) complying with
applicable laws and regulations.

We are responsible for obtaining reasonable assurance about whether the financial statements are
presented fairly, in all material respects, in conformity with U.S. Generally Accepted Accounting
Principles. We are also responsible for (1) obtaining a sufficient understanding of internal control
over financial reporting and compliance to plan the audit, (2) testing compliance with selected
provisions of laws and regulations that have a direct and material effect on the financial
statements and laws for which OMB audit guidance requires testing, (3) performing limited
procedures with respect to certain other information appearing in the Annual Financial
Statements, and (4) expressing an opinion on these financial statements based on our audit.

In order to fulfill these responsibilities, we:

    •   examined, on a test basis, evidence supporting the amounts and disclosures in the
        financial statements;
    •   assessed the accounting principles used and significant estimates made by management;
    •   evaluated the overall presentation of the financial statements;
    •   obtained an understanding of the FMC and its operations, including its internal control
        related to financial reporting (including safeguarding assets), and compliance with laws
        and regulations (including execution of transactions in accordance with budget authority);
    •   tested relevant internal controls over financial reporting and compliance, and evaluated
        the design and operating effectiveness of internal control;
    •   considered the design of the process for evaluating and reporting on internal control and
        financial management systems under the Federal Managers' Financial Integrity Act; and
    •   tested compliance with selected provisions of laws and regulations.

We did not evaluate all internal controls relevant to operating objectives, as broadly defined by
the Federal Managers' Financial Integrity Act, such as those controls relevant to preparing
statistical reports and ensuring efficient operations. We limited our internal control testing to
controls over financial reporting and compliance. Because of inherent limitations in internal
control, misstatements due to error or fraud, losses, or noncompliance may nevertheless occur
and not be detected. We caution that our internal control testing may not be sufficient for other
purposes and that projecting our evaluation to future periods is subject to the risk that controls
may become inadequate because of changes in conditions, or that the degree of compliance with
controls may deteriorate.




                                                  6 
 
We did not test compliance with all laws and regulations applicable to the Federal Maritime
Commission. We limited our tests of compliance to selected provisions of laws and regulations
that have a direct and material effect on the financial statements, and those required by OMB
audit guidance that we deemed applicable to the Federal Maritime Commission's financial
statements for the fiscal year ended September 30, 2012. We caution that noncompliance may
occur and not be detected by these tests, and that such testing may not be sufficient for other
purposes.

We performed our audit in accordance with auditing standards generally accepted in the United
States and OMB audit guidance.

Agency Comments and Our Evaluation

The Federal Maritime Commission concurred with the facts and conclusions in our report. See
Appendix A.



Regis & Associates, PC
Washington, DC

November 9, 2012
 

                              




                                              7 
 
                                      FEDERAL MARITIME COMMISSION
                                              BALANCE SHEET
                                      AS OF SEPTEMBER 30, 2012 AND 2011


                                                                                 2012              2011
Assets:
  Intragovernmental
     Fund Balance With Treasury (Note 2)                                     $    4,254,644    $    3,792,671
  Total Intragovernmental                                                         4,254,644         3,792,671

  Accounts Receivable, Net (Note 3)                                                   4,031               979
  Property, Equipment, and Software, Net (Note 4)                                   420,323           525,021
  Other                                                                                   -               300
Total Assets                                                                 $    4,678,998    $    4,318,971


Liabilities:
  Intragovernmental
     Accounts Payable                                                        $     201,490     $     146,636
     Employer Contributions and Payroll Taxes Payable                              191,260           188,998
     Unfunded FECA Liability (Note 6)                                                  324             1,956
     Custodial Liability (Note 6)                                                      256               979
     Other                                                                               -               870
  Total Intragovernmental                                                          393,330           339,439

  Accounts Payable                                                                  177,008           103,362
  Federal Employee and Veterans' Benefits (Note 6)                                    5,910             5,910
  Accrued Liabilities                                                               901,485           951,116
  Employee Contributions and Payroll Taxes Payable                                   24,363            24,546
  Unfunded Leave (Note 6)                                                         1,276,758         1,229,110
Total Liabilities                                                            $    2,778,854    $    2,653,483

Net Position:
  Unexpended Appropriations - Other Funds                                         2,759,038         2,378,313
  Cumulative Results of Operations - Other Funds                                   (858,894)         (712,825)
  Total Net Position                                                         $    1,900,144    $    1,665,488
Total Liabilities and Net Position                                           $    4,678,998    $    4,318,971

 

The accompanying notes are an integral part of these financial statements 

                                   




                                                        8 
 
                                     FEDERAL MARITIME COMMISSION
                                        STATEMENT OF NET COST
                             FOR THE YEARS ENDED SEPTEMBER 30, 2012 AND 2011


                                                                        2012               2011
Program Costs:
  Operational and Administrative
    Gross Costs                                                $      16,908,154     $   17,474,598
    Less: Earned Revenue                                                  (41,676)                 -
    Net Program Costs                                          $      16,866,478     $   17,474,598


    Formal Proceedings
      Gross Costs                                              $       7,374,383     $    7,576,489
      Less: Earned Revenue                                                      -            (39,856)
      Net Program Costs                                        $       7,374,383     $    7,536,633

    Office of Inspector General
      Gross Costs                                              $         743,557     $     721,109
      Less: Earned Revenue                                                (12,984)          (19,336)
      Net Program Costs                                        $         730,573     $     701,773

    Office of Equal Employment Opportunity
      Gross Costs                                              $         193,612     $     198,706
      Net Program Costs                                        $         193,612     $     198,706

Net Cost of Operations (Note 8)                                $      25,165,046     $   25,911,710




 

The accompanying notes are an integral part of these financial statements 

                                    




                                                      9 
 
                        FEDERAL MARITIME COMMISSION
                    STATEMENT OF CHANGES IN NET POSITION
                FOR THE YEARS ENDED SEPTEMBER 30, 2012 AND 2011


                                                             2012                 2011

Cumulative Results of Operations:
Beginning Balances                                     $       (712,825)     $     (600,844)

Budgetary Financing Sources:
  Appropriations Used                                        23,560,395          24,236,436

Other Financing Sources (Non-Exchange):
  Imputed Financing Sources (Note 11)                         1,458,582            1,563,293
Total Financing Sources                                      25,018,977           25,799,729
Net Cost of Operations                                      (25,165,046)         (25,911,710)
Net Change                                                     (146,069)            (111,981)
Cumulative Results of Operations                       $       (858,894)     $      (712,825)

Unexpended Appropriations:
Beginning Balances                                     $      2,378,313      $    2,647,804

Budgetary Financing Sources:
  Appropriations Received                                    24,100,000           24,135,000
  Other Adjustments                                            (158,880)            (168,055)
  Appropriations Used                                       (23,560,395)         (24,236,436)
Total Budgetary Financing Sources                               380,725            (269,491)
Total Unexpended Appropriations                        $      2,759,038      $    2,378,313
Net Position                                           $      1,900,144      $    1,665,488

 

The accompanying notes are an integral part of these financial statements 

                                     




                                                      10 
 
                                    FEDERAL MARITIME COMMISSION
                                 STATEMENT OF BUDGETARY RESOURCES
                            FOR THE YEARS ENDED SEPTEMBER 30, 2012 AND 2011


                                                                             2012                2011
Budgetary Resources:

Unobligated Balance Brought Forward, October 1                        $       1,245,904      $    1,303,927
Recoveries of Prior Year Unpaid Obligations                                     182,051             103,585
Unobligated balance from prior year budget authority, net                     1,269,074           1,287,727
Appropriations                                                               24,100,000          24,086,730
Spending authority from offsetting collections                                   54,660              59,192
Total Budgetary Resources                                             $      25,423,734      $   25,433,649

Status of Budgetary Resources:
Obligations Incurred (Note 12)                                        $      24,138,684      $   24,187,745
Unobligated balance, end of year:
      Apportioned                                                                86,652              25,375
      Unapportioned                                                           1,198,398           1,220,529
Total unobligated balance, end of year                                        1,285,050           1,245,904
Total Status of Budgetary Resources                                   $      25,423,734      $   25,433,649

Change in Obligated Balance:
Unpaid Obligations, Brought Forward, October 1                        $         2,546,766    $     3,558,091
Adjustment to obligated balance, start of year                                 (2,969,594)        (2,546,766)
Obligated balance, start of year, as adjusted                                    (422,828)         1,011,325
Obligations Incurred                                                          24,138,684          24,187,745
Outlays (gross)                                                              (23,533,805)        (25,095,485)
Recoveries of Prior Year Unpaid Obligations                                      (182,051)          (103,585)
Obligated balance, end of year
     Unpaid obligations, end of year                                          2,969,594           2,546,766
Obligated balance, end of year                                        $       2,969,594      $    2,546,766

Budget Authority and Outlays, Net:
Budget authority, gross                                               $      24,154,660      $   24,145,922
Actual offsetting collections                                                   (54,660)             (59,192)
Budget Authority, net                                                 $      24,100,000      $   24,086,730

Outlays, gross                                                        $      23,533,806      $   25,095,485
Actual offsetting collections                                                    (54,660)            (59,192)
Outlays, net                                                                 23,479,146          25,036,293
Distributed Offsetting Receipts                                                 664,935           2,430,482
Agency outlays, net                                                          24,144,081          27,466,775

 

The accompanying notes are an integral part of these financial statements 

                                    

                                                        11 
 
                                             FEDERAL MARITIME COMMISSION
                                            AS OF SEPTEMBER 30, 2012 AND 2011
                                           STATEMENT OF CUSTODIAL ACTIVITY


                                                                      2012            2011
Revenue Activity:
    Sources of Cash Collections:
      Miscellaneous                                           $     1,006,298    $   2,430,482
    Total Cash Collections (Note 13)                                1,006,298        2,430,482


    Accrual Adjustments                                                     -              865
    Total Custodial Revenue                                   $     1,006,298    $   2,431,347


Disposition of Collections:
  Transferred to Others (by Recipient)                        $     1,006,298    $   2,430,482
  Retained by the Reporting Entity                                                         865
Net Custodial Activity                                        $              -   $           -



 

The accompanying notes are an integral part of these financial statements 

 

                                        




                                                        12 
 
                                                                                                              
                              FEDERAL MARITIME COMMISSION 
                            NOTES TO THE FINANCIAL STATEMENTS 
 
    NOTE 1.  SUMMARY OF SIGNIFICANT                       governments; processes and reviews agreements,
    ACCOUNTING POLICIES                                   service contracts, and service arrangements
                                                          pursuant to the 1984 Act for compliance with
    A.  Reporting Entity                                  statutory requirements; and reviews common
                                                          carriers’ privately published tariff systems for
    The Federal Maritime Commission (FMC) was             accessibility, accuracy, and reasonable terms. The
    established as an independent regulatory agency       FMC also issues licenses to qualified OTIs in the
    on August 12, 1961. The FMC is responsible for        U.S., ensures that all OTIs are bonded or maintain
    the regulation of oceanborne transportation in the    other evidence of financial responsibility, and,
    foreign commerce of the United States (U.S.).         pursuant to 46 U.S.C. §§ 44102 and 44103,
    The principal statutes or statutory provisions        ensures that passenger vessel operators (PVO)
    administered by the Commission are the Shipping       demonstrate adequate financial responsibility to
    Act of 1984, as amended by the Ocean Shipping         indemnify passengers in the event of
    Reform Act of 1998 (OSRA), the Foreign                nonperformance of voyages or passenger injury or
    Shipping Practices Act of 1988 (FSPA), section        death.
    19 of the Merchant Marine Act of 1920, and
    sections 2 and 3 of Public Law No. 89-777.            The FMC is composed of five Commissioners
                                                          appointed for five-year terms by the President
    The Commission monitors the activities of ocean       with the advice and consent of the Senate. The
    common carriers, marine terminal operators            President designates one of the Commissioners to
    (MTOs), ports and ocean transportation                serve as Chairman, who is the chief executive and
    intermediaries     (OTIs)    (non-vessel-operating    administrative officer of FMC.
    common carriers and freight forwarders) who
    operate in the U.S. foreign commerce to ensure        The FMC reporting entity is comprised of General
    that they maintain just and reasonable practices;     Funds and General Miscellaneous Receipts.
    maintains trade monitoring, enforcement and           General Funds are accounts used to record
    dispute resolution programs designed to assist        financial transactions arising under congressional
    regulated entities in achieving compliance and to     appropriations or other authorizations to spend
    detect and appropriately remedy malpractices and      general revenues.
    violations of the prohibited acts set forth in
    section 10 of the 1984 Act; reviews competitive       General Fund miscellaneous receipts are accounts
    activities of common carrier alliances and other      established for receipts of non-recurring activity,
    agreements among common carriers and/or               such as fines, penalties, fees and other
    terminal operators; monitors the laws and             miscellaneous receipts for services and benefits.
    practices of foreign governments which could
                                                           The FMC makes custodial collections and holds
    have a discriminatory or otherwise adverse impact
                                                           custodial receivables that are non-entity assets
    on shipping conditions in U.S. trades, and
                                                           and are transferred to Treasury at fiscal year end.
    imposes remedial action, as appropriate, pursuant
    to section 19 of the 1920 Act or FSPA; enforces
    special regulatory requirements applicable to
    carriers owned or controlled by foreign

                                                    13 
 
The FMC has rights and ownership of all assets
reported in these financial statements. FMC                D.  Fund Balance with Treasury 
does not possess any non-entity assets.
                                                           Fund Balance with Treasury is the aggregate
                                                           amount of the FMC’s funds with Treasury in
B.  Basis of Presentation                                  expenditure and receipt, accounts. Appropriated
                                                           funds recorded in expenditure accounts are
The financial statements have been prepared to             available to pay current liabilities and finance
report the financial position, net cost of                 authorized purchases.
operations, changes in net position, and the
status and availability of budgetary resources of          FMC does not maintain bank accounts of its
the FMC. The statements are a requirement of               own, has no disbursing authority and does not
the Accountability of Tax Dollars Act of 2002.             maintain cash held outside of Treasury.
They have been prepared from, and are fully                Treasury disburses funds for FMC on demand.
supported by, the books and records of FMC in
accordance with the hierarchy of accounting
principles generally accepted in the United                E.  Accounts Receivable 
States of America, standards approved by the
Federal Accounting Standards Advisory Board                Accounts receivable consists of amounts owed
(FASAB), OMB Circular A-136, Financial                     to the FMC by other Federal agencies, its
Reporting Requirements, as amended, and FMC                employees and the general public. Accounts
accounting policies which are summarized in                receivable in the Salaries and Expense Fund
this note. These statements, with the exception            represent employee-related receivables.       An
of the Statement of Budgetary Resources, are               allowance for uncollectible accounts receivable
different from financial management reports,               from the public is established when, based upon
which are also prepared pursuant to OMB                    a review of outstanding accounts, management
directives that are used to monitor and control            determines that collection is unlikely to occur
the FMC’s use of budgetary resources. The                  considering the debtor’s ability to pay. Debts
financial statements and associated notes are              six months or more past due are referred to the
presented on a comparative basis.         Unless           Department of Treasury for follow-up collection
specified otherwise, all amounts are presented in          efforts in keeping with the Debt Collection
dollars.                                                   Improvement Act of 1996 (DCIA). Treasury’s
                                                           Debt Management Services (DMS) administers
                                                           the program and adds a fee equal to 28 percent
                                                           of the amount of debt that is less than 2 years
C.  Basis of Accounting 
                                                           delinquent or 30 percent of debts delinquent by 2
                                                           years or more. Collections, net of fees, are
Transactions are recorded on both an accrual               returned to the FMC for remittance to the
accounting basis and a budgetary basis. Under              general fund of the Treasury.
the accrual method, revenues are recognized
when earned, and expenses are recognized when
a liability is incurred, without regard to receipt         F.  Property, Equipment, and Software 
or payment of cash. Budgetary accounting                   Property, equipment and software represent
facilitates compliance with legal requirements             furniture, fixtures, equipment, and information
on the use of Federal funds. Balances on these             technology (IT) hardware and software which
statements may therefore differ from those on              are recorded at original acquisition cost and are
financial reports prepared pursuant to other               depreciated or amortized using the straight-line
OMB directives that are primarily used to                  method over their estimated useful lives. Major
monitor and control the FMC's use of budgetary             alterations and renovations are capitalized,
resources.                                                 except wherein the tenant improvement
                                                           allowance specified in lease agreements covers

                                                     14 
 
the costs of certain renovations. Maintenance              agency, including private sector firms and
and repair costs are expensed as incurred. The             federal employees. Each of these categories
FMC's capitalization threshold is $25,000 for              may include liabilities that are covered by
individual purchases.         Applicable standard          budgetary resources and liabilities not covered
governmental guidelines regulate the disposal              by budgetary resources.
and convertibility of agency property, equipment
and software. The useful life classifications for          Liabilities covered by budgetary resources are
capitalized assets are as follows:                         liabilities funded by a current appropriation or
                                                           other funding source. These consist of accounts
                                                           payable and accrued payroll and benefits.
                                                           Accounts payable represent amounts owed to
    Description              Useful Life (years)           another entity for goods ordered and received
                                                           and for services rendered except for employees.
    Leasehold Improvements             5                   Accrued payroll and benefits represent payroll
                                                           costs earned by employees during the fiscal year
    Office Furniture                   5                   which are not paid until the next fiscal year.

    Computer Equipment                 5
                                                           Liabilities not covered by budgetary resources
    Office Equipment                   5                   are liabilities that are not funded by any current
                                                           appropriation or other funding source. These
    IT Software                        5                   liabilities consist of accrued annual leave,
                                                           actuarial FECA, and the amounts due to
                                                           Treasury for collection and accounts receivable
                                                           of civil penalties.
G.  Advances and Prepaid Charges 
                                                           I.  Annual, Sick and Other Leave 
Advance payments are generally prohibited by               Annual leave is accrued as it is earned, and the
law. There are exceptions, such as some                    accrual is reduced as leave is taken. The balance
reimbursable agreements, subscriptions, and                in the accrued leave account is adjusted to reflect
payments to contractors and employees.                     current pay rates. Liabilities associated with
Payments made in advance of the receipt of                 other types of vested leave, including
goods and services are recorded as advances or             compensatory, restored leave and sick leave in
prepaid charges at the time of prepayment and              certain circumstances, are accrued at year-end,
recognized as expenses when the related goods              based on latest pay rates and unused hours of
and services are received.                                 leave. Funding will be obtained from future
                                                           financing sources to the extent that current or
H.  Liabilities                                            prior year appropriations are not available to
                                                           fund annual and other types of vested leave
Liabilities represent the amount of funds likely           earned but not taken. Nonvested leave is
to be paid by the FMC as a result of transactions          expensed when used. Any liability for unused
or events that have already occurred.                      sick leave that is accrued but not taken by a Civil
                                                           Service Retirement System (CSRS)-covered
The FMC reports its liabilities under two                  employee is transferred to the OPM upon the
categories, Intragovernmental and With the                 retirement of that individual. Credit is given for
Public. Intragovernmental liabilities represent            sick leave balances in the computation of
funds owed to another government agency.                   annuities upon the retirement of Federal
Liabilities With the Public represents funds               Employees Retirement System (FERS)-covered
owed to any entity or person that is not a federal

                                                     15 
 
employees effective at 50% beginning FY2010                 contributions, ranging from one to four percent,
and 100% in 2014.                                           for FERS eligible employees who contribute to
                                                            their TSP accounts. Matching contributions are
                                                            not made to the TSP accounts established by
J.         Accrued  and     Actuarial    Workers’ 
                                                            CSRS employees. For FERS participants, FMC
          Compensation 
                                                            also remits the employer's share of the required
                                                            contribution.
The Federal Employees' Compensation Act
(FECA) administered by the U.S. Department of               FERS      employees      and    certain   CSRS
Labor (DOL) addresses all claims brought by                 reinstatement employees are eligible to
FMC employees for on-the-job injuries.       The            participate in the Social Security program after
DOL bills each agency annually as its claims are            retirement.
paid, and the actual costs incurred are reflected
as a liability to the agency. Payment of these              The FMC recognizes the imputed cost of
bills is deferred for two years to allow for                pension and other retirement benefits during the
funding through the budget process. Similarly,              employees’ active years of service.         OPM
employees that the FMC terminates without                   actuaries determine pension cost factors by
cause may receive unemployment compensation                 calculating the value of pension benefits
benefits under the unemployment insurance                   expected to be paid in the future and
program also administered by the DOL, which                 communicate these factors to FMC for current
bills each agency quarterly for paid claims.                period expense reporting. OPM also provides
Future appropriations will be used for the                  information regarding the full cost of health and
reimbursement to DOL. The liability consists of             life insurance benefits. FMC recognized the
(1) the net present value of estimated future               offsetting revenue as imputed financing sources
payments calculated by the DOL, and (2) the                 to the extent these expenses will be paid by
unreimbursed cost paid by DOL for                           OPM.
compensation to recipients under the FECA.
                                                            The FMC does not report on its financial
K. Retirement Plans                                         statements information pertaining to the
                                                            retirement plans covering its employees.
                                                            Reporting amounts such as plan assets,
FMC employees participate in either the CSRS                accumulated plan benefits, and related unfunded
or the FERS. The employees who participate in               liabilities, if any, is the responsibility of the
CSRS are beneficiaries of FMC's contribution,               OPM.
equal to seven percent of pay, distributed to their
annuity account in the Civil Service Retirement
and Disability Fund.                                        L.  Other Post‐Employment Benefits 

Prior to December 31, 1983, all employees were              FMC employees eligible to participate in the
covered under the CSRS program.           From              Federal Employees Health Benefits Plan
January 1, 1984 through December 31, 1986,                  (FEHBP) and the Federal Employees Group Life
employees had the option of remaining under                 Insurance Program (FEGLIP) may continue to
CSRS or joining FERS and Social Security.                   participate in these programs after their
Employees hired as of January 1, 1987 are                   retirement. The OPM has provided FMC with
automatically covered by the FERS program.                  certain cost factors that estimate the true cost of
All employees are eligible to contribute to the             providing the post-retirement benefit to current
Thrift Savings Plan (TSP). For those employees
participating in the FERS, a TSP account is
automatically established and FMC makes a
mandatory one percent contribution to this
account. In addition, FMC makes matching

                                                      16 
 
employees. FMC recognizes a current cost for                entity for costs that are paid by other entities.
these and Other Retirement Benefits (ORB) at                FMC recognized imputed costs and financing
the time the employee's services are rendered.              sources in fiscal years 2012 and 2011 to the
The ORB expense is financed by OPM, and                     extent directed by OMB.
offset by FMC through the recognition of an
imputed financing source.
                                                            O.  Contingencies 

M.  Use of Estimates                                        The FMC recognizes contingent liabilities when
                                                            a past event or exchange transaction has
The preparation of the accompanying financial               occurred, a future outflow or other sacrifice of
statements in accordance with generally                     resources is probable, and the future outflow or
accepted     accounting      principles    requires         sacrifice of resources is measurable. Liabilities
management to make certain estimates and                    are deemed contingent when the existence or
assumptions that affect the reported amounts of             amount of the liability cannot be determined
assets and liabilities and disclosure of contingent         with certainty pending the outcome of future
assets and liabilities at the date of the financial         events. FMC recognizes contingent liabilities, in
statements and the reported amounts of revenues             the accompanying balance sheet and statement
and expenses during the reporting period.                   of net cost, when it is both probable and can be
Actual results could differ from those estimates.           reasonably estimated. FMC discloses contingent
                                                            liabilities in the notes to the financial statements
                                                            when the conditions for liability recognition are
N.  Imputed Costs/Financing Sources 
                                                            not met or when a loss from the outcome of
                                                            future events is more than remote. In some
Federal Government entities often receive goods
                                                            cases, once losses are certain, payments may be
and services from other Federal Government
                                                            made from the Judgment Fund maintained by
entities without reimbursing the providing entity
                                                            the U.S. Treasury rather than from the amounts
for all the related costs. In addition, Federal
                                                            appropriated to FMC for agency operations.
Government entities also incur costs that are paid
                                                            Payments from the Judgment Fund are recorded
in total or in part by other entities. An imputed
                                                            as an “Other Financing Source” when made.
financing source is recognized by the receiving




                                                      17 
 
NOTE 2.  FUND BALANCE WITH TREASURY 
Fund balance with Treasury account balances as of September 30, 2012 and 2011 were as follows:
                                                          2012                   2011
    Fund Balances:
    Appropriated Funds                               $     4,254,644        $     3,792,671
    Total                                            $     4,254,644        $     3,792,671

    Status of Fund Balance with Treasury:
    Unobligated Balance
       Available                                     $        86,652        $        25,375
       Unavailable                                         1,198,398              1,220,529
    Obligated Balance Not Yet Disbursed                    2,969,594              2,546,767
    Total                                            $     4,254,644        $     3,792,671
                                                                                               
The available unobligated fund balances represent the current-period amount available for obligation or
commitment. At the start of the next fiscal year, this amount will become part of the unavailable balance
as described in the following paragraph.
The unavailable unobligated fund balances represent the amount of appropriations for which the period of
availability for obligation has expired. These balances are available for upward adjustments of
obligations incurred only during the period for which the appropriation was available for obligation or for
paying claims attributable to the appropriations.

The obligated balance not yet disbursed includes accounts payable, accrued expenses, and undelivered
orders that have reduced unexpended appropriations but have not yet decreased the cash balance on hand.
(See also Undelivered Orders at the End of the Period, Note 10.)



                                 




                                                    18 
 
NOTE 3.  ACCOUNTS RECEIVABLE 

Accounts receivable balances as of September 30, 2012 and 2011 were as follows:
                                                       2012                  2011
With the Public
Accounts Receivable                                $       4,031         $        979
Total Accounts Receivable                          $       4,031         $        979
                                                                                            

The accounts receivable is primarily made up of employee receivables and custodial collections.

Historical experience has indicated that the majority of the receivables are collectible. There are no
material uncollectible accounts as of September 30, 2012 and 2011.



NOTE 4.  PROPERTY, EQUIPMENT, AND SOFTWARE 


Schedule of Property, Equipment, and Software as of September 30, 2012:

                                                          Accumulate d
                                     Acquisition          Amortization/          Ne t Book
    Major Class                         Cost              De preciation           Value
    Leasehold Improvements          $     225,000         $     157,500        $       67,500
    Furniture & Equipment                 315,250               143,006               172,244
    Software-in-Development              180,579                       -              180,579
    Total                           $    720,829          $     300,506        $      420,323
                                                                                                   

Schedule of Property, Equipment, and Software as of September 30, 2011:

                                                          Accumulate d
                                     Acquisition          Amortization/          Ne t Book
    Major Class                         Cost              De preciation           Value
    Leasehold Improvements          $     225,000         $     112,500        $      112,500
    Furniture & Equipment                 520,566               288,624               231,942
    Software-in-Development              180,579                       -              180,579
    Total                           $    926,145          $     401,124        $      525,021
                                                                                                   

                                 




                                                    19 
 
NOTE 5.  LIABILITIES NOT COVERED BY BUDGETARY RESOURCES 


The liabilities for FMC as of September 30, 2012 and 2011 include liabilities not covered by budgetary
resources. Congressional action is needed before budgetary resources can be provided. Although future
appropriations to fund these liabilities are likely and anticipated, it is not certain that appropriations will
be enacted to fund these liabilities.
 

                                                                    2012                   2011
    Intragovernmental – FECA                             $                 324        $         1,956
    Intragovernmental – Unemployment Insurance                               -                    870
    Actuarial FECA                                                       5,910                  5,910
    Unfunded Leave                                                   1,276,758              1,229,110
    Total Liabilities Not Covered by Budgetary Resources $           1,282,992       $      1,237,846
    Accounts Payable                                                   378,498                249,998
    Accrued Funded Payroll and Leave                                   901,485                951,116
    Employer Contributions and Payroll Taxes Payable                   215,623                213,544
    Custodial Liability                                                    256                    979
    Total Liabilities                                    $           2,778,854        $     2,653,483


FECA and the Unemployment Insurance liabilities represent the unfunded liability for actual workers
compensation claims paid on FMC's behalf and payable to DOL. FMC also records an actuarial liability
for future workers compensation claims based on the liability to benefits paid (LBP) ratio provided by
DOL and multiplied by the average of benefits paid over three years.
Unfunded leave represents a liability for earned leave and is reduced when leave is taken. The balance in
the accrued annual leave account is reviewed quarterly and adjusted as needed to accurately reflect the
liability at current pay rates and leave balances. Accrued annual leave is paid from future funding sources
and, accordingly, is reflected as a liability not covered by budgetary resources. Sick and other leave is
expensed as taken.


                                   




                                                      20 
 
NOTE 6.  OPERATING LEASES 
 

FMC occupies office space in seven locations, of which six of the lease agreements are required to be
accounted for as operating leases. Lease payments are increased annually based on the adjustments for
operating cost and real estate tax escalations. The lease locations and terms are listed below:
    Location                                         Term                Lease Expiration Date
    Washington DC                                      10 years                     10/31/2012
    Jamaica, NY                                         5 years                     07/01/2013
    Houston, TX                                        10 years                     09/14/2018
    Tacoma, WA                                         10 years                     06/30/2019
    Hollywood, FL                                      10 years                     05/31/2020
    San Pedro, CA                                      10 years                     09/30/2021  
 
The lease amounts vary from year to year depending on the specific lease. The schedule of future
payments for the term of the leases is as follows:
    Fiscal Ye ar                                                              Totals
    2013                                                                     $ 347,931
    2014                                                                        71,819
    2015                                                                        73,070
    2016                                                                        74,665
    2017                                                                        75,665
    Thereafter                                                                 189,221
    Total Future Payments                                                    $ 832,371
                                                                                             
The operating lease amount does not include estimated payments for leases with annual renewal options.
Real estate taxes included in the Washington, DC lease may escalate depending on the market during the
year they are due.

NOTE 7.  CONTINGENCIES 

FMC did not have any material commitments or contingencies that met disclosure requirements as of
September 30, 2012. FMC records commitments and contingent liabilities for legal cases in which
payment has been deemed probable and the amount of potential liability has been estimated. There is one
legal action pending against FMC in which claims have been asserted that may be based on action taken
by FMC. Management intends to vigorously contest all such claims. In FY2012, based on information
provided by legal counsel, FMC estimates a possible liability of $300,000 in connection with this lawsuit.
There were no contingent liabilities as of September 30, 2012.



NOTE 8.  INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE 




                                                   21 
 
Intragovernmental costs and exchange revenue represent goods and services exchange transactions made
between two reporting entities within the Federal government, and are in contrast to those with non-
Federal entities (the public). Such costs are summarized as follows:
 

                                                          2012                   2011
    Operational and Administrative
     Intragovernmental Costs                          $    4,811,649        $    5,107,709
     Public Costs                                         12,096,505            12,366,889
      Total Program Costs                                 16,908,154            17,474,598
     Less: Intragovernmental Earned Revenue                  (41,676)                    -
      Net Program Costs                                   16,866,478            17,474,598

    Formal Proceedings
      Intragovernmental Costs                              1,529,477              1,553,388
      Public Costs                                         5,844,906              6,023,101
       Total Program Costs                                 7,374,383              7,576,489
      Less: Intragovernmental Earned Revenue                       -                (39,856)
       Net Program Costs                                   7,374,383              7,536,633

    Office of Inspector General
     Intragovernmental Costs                                129,247                129,943
     Public Costs                                           614,311                591,166
       Total Program Costs                                  743,558                721,109
     Less: Intragovernmental Earned Revenue                 (12,984)               (19,336)
       Net Program Costs                                    730,574                701,773

    Office of Equal Employment Opportunity
     Intragovernmental Costs                                 28,549                 33,614
     Public Costs                                           165,063                165,092
       Total Program Costs                                  193,612                198,706
       Net Program Costs                                    193,612                198,706

    Total Intragovernmental costs                          6,498,922             6,824,654
    Total Public costs                                    18,720,784            19,146,248
       Total Costs                                        25,219,706            25,970,902
    Less: Total Intragovernmental Earned Revenue             (54,660)              (59,192)
     Total Net Cost                                   $   25,165,046        $   25,911,710
                                                                                                

 

 

 

                                                22 
 
NOTE 9.  IMPUTED FINANCING SOURCES 

FMC recognizes as imputed financing the costs of future benefits which include health benefits, life
insurance, pension and post-retirement benefit expenses for current employees. The assets and liabilities
associated with such benefits are the responsibility of the administering agency, OPM. For the years
ended September 30, 2012 and 2011 imputed financing was as follows:
 

                                                             2012                    2011
    Office of Personnel Management                       $    1,458,582         $     1,563,293
    Total Imputed Financing Sources                      $    1,458,582         $     1,563,293
                                                                                                   

 
NOTE  10.    BUDGETARY  RESOURCE  COMPARISONS  TO  THE  BUDGET  OF  THE  UNITED  STATES 
GOVERNMENT 


The President’s Budget that will include FY12 actual budgetary execution information has not yet been
published. The President’s Budget is scheduled for publication in February 2013 and can be found at the
OMB Web site: http://www.whitehouse.gov/omb/. The 2012 Budget of the United States Government,
with the "Actual" column completed for 2011, has been reconciled to the Statement of Budgetary
Resources and there were no material differences.

 
NOTE 11.  APPORTIONMENT CATEGORIES OF OBLIGATIONS INCURRED 


Obligations incurred and reported in the Statement of Budgetary Resources as of September 30, 2012 and
2011 consisted of the following:
                                                          2012                      2011
 Direct Obligations, Category A                        $ 24,084,024             $ 24,128,553
 Reimbursable Obligations, Category A                         54,660                   59,192
 Total Obligations Incurred                            $ 24,138,684             $ 24,187,745

Category A apportionments distribute budgetary resources by fiscal quarters.




                                                   23 
 
NOTE 12. UNDELIVERED ORDERS AT THE END OF THE PERIOD 

Undelivered orders represent goods and services which have been ordered but not yet received at fiscal
year end. Statement of Federal Financial Accounting Standards No. 7, Accounting for Revenue and Other
Financing Sources and Concepts for Reconciling Budgetary and Financial Accounting, states that the
amount of budgetary resources obligated for undelivered orders at the end of the period should be
disclosed. For the years ending September 30, 2012 and 2011, respectively, undelivered orders amounted
to the following:

                                                               2012                  2011
    Undelivered Orders                                    $      1,473,988      $      1,132,410
    Total Undelivered Orders                              $      1,473,988      $      1,132,410
                                                                                                       

NOTE 13.  CUSTODIAL ACTIVITY 

FMC is an administrative agency collecting for the General Fund. As a collecting entity, FMC measures
and reports cash collections and refunds as custodial activity on the Statement of Custodial Activity.
Cash collections result primarily from FMC regulatory activities to include the assessment of fines and
penalties and the payment of license application fees by ocean transportation intermediaries. A small
portion of amounts collected is for interest on past due fines, petitions, status changes and special
permission fees.

Custodial receipts are broken out in the following general receipt funds:

                                                              2012                  2011
    Fines, Penalties, and Forfeitures                     $      665,000       $     2,097,500
    General Fund Proprietary Receipts (user fees)                341,673               336,252
    Refund of User Fees                                            (375)                (3,270)
    Total Custodial Collections                           $    1,006,298       $     2,430,482
                                                                                                   




                                                    24 
 
NOTE 14.  RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET  

FMC has reconciled its budgetary obligations and non-budgetary resources available to its net cost of
operations.
                                                                                     2012            2011
    Resources Used to Finance Activities:
    Budgetary Resources Obligated
     Obligations Incurred                                                       $ 24,138,684        24,187,745
     Spending Authority From Offsetting Collections and Recoveries              $     (236,711)       (162,777)
     Obligations Net of Offsetting Collections and Recoveries                       23,901,973      24,024,968
     Offsetting Receipts                                                              664,935        2,430,482
     Net Obligations                                                                24,566,908      26,455,450
    Other Resources
     Imputed Financing From Costs Absorbed By Others                                 1,458,582       1,563,293
     Net Other Resources Used to Finance Activities                                  1,458,582       1,563,293
    Total Resources Used to Finance Activities                                      26,025,490      28,018,743


    Resources Used to Finance Items Not Part of the Net Cost of Operations:
     Change In Budgetary Resources Obligated For Goods,
       Services and Benefits Ordered But Not Yet Provided                             (341,579)        211,467
     Resources That Fund Expenses Recognized In Prior Periods                           (2,502)           1,086
       Other                                                                          (664,935)     (2,430,482)


     Total Resources Used to Finance Items Not Part of Net Cost of Operations       (1,009,016)     (2,217,929)
    Total Resources Used to Finance the Net Cost of Operations                      25,016,474      25,800,814


    Components of the Net Cost of Operations That Will Not Require or
    Generate Resources in the Current Period:
    Components Requiring or Generating Resources in Future Periods
     Increase In Annual Leave Liability                                                47,648            12,109
     Other                                                                                   -           (5,911)
     Total Components of Net Cost of Operations That Will Require or
       Generate Resources In Future Periods                                            47,648             6,198
    Components Not Requiring or Generating Resources
     Depreciation and Amortization                                                    104,698           104,698
     Total Components of Net Cost of Operations That Will Not Require or
       Generate Resources                                                             100,924           104,698
    Total Components of Net Cost of Operations That Will Not Require or
     Generate Resources In The Current Period                                         148,572           110,896
    Net Cost of Operations                                                      $ 25,165,046      $ 25,911,710




                                                       25 
 
                   
                        
 
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        

                 APPENDIX A -
    FEDERAL MARITIME COMMISSION COMMENTS ON 
               DRAFT AUDIT REPORT 
 

 

 

 

 

 

 

 

            




                        
 
 



                              FEDERAL MARITIME COMMISSION
                                  Office of Inspector General
                                 Washington, DC 20573-0001

                                      November 14, 2012
                       
Office of Inspector General



Regis & Associates, PC
Lateef Abassi, CPA
1400 Eye Street, NW Suite 425
Washington DC 20005


Dear Mr. Abassi,

I have reviewed the draft audit report provided to me relating to your audit of the Federal
Maritime Commission for the fiscal year ended September 30, 2012. I concur with the facts and
conclusions in the draft report.



Sincerely,



/Adam R. Trzeciak/
Inspector General



Attachment

cc:     Commissioners
        Managing Director 
 
 




                                             27 
 
